Executive Report
Return to the USDOJ/OIG Home Page
Immigration and Naturalization ServiceCollection of Fees at Land Border Ports of Entry
Report No. 00-05February 10, 2000Office of the Inspector General
EXECUTIVE SUMMARY
We identified serious control weaknesses in the Immigration and Naturalization Service's (INS) fee collection program at land border ports of entry (POEs).  We found that cashiers could easily steal cash before it is recorded in the cash register and conceal the loss by either failing to ring up the transaction or voiding the transaction after it had been rung up.  Further, POE staff responsible for handling fee monies were not held accountable for cash shortages, and POE managers could not account for many of the cash register tapes that documented thousands of transactions.  As a result, these situations left little or no audit trail and created an environment highly vulnerable to loss or theft because there was little risk of detection.
In FY 1998, fee collections at all land POEs totaled approximately $17 million, with the 39 POEs along the southwest border accounting for more than $15 million.  We selected a sample of six of the largest POEs along the southwest border and arrived unannounced to test management controls over the fee collection process.  We reviewed the following six POEs:  Bridge of Americas, Paso Del Norte, and Laredo in Texas; Douglas and Nogales in Arizona; and San Ysidro in California.
We initiated this audit because two separate OIG investigations into the theft of fee monies at land POEs had identified significant discrepancies in the management controls over fee collections.  We were concerned whether these discrepancies were indicative of more widespread internal control problems at land POEs.  Generally, our audit confirmed this as the controls and procedures currently in place allow opportunities for loss or theft of fee monies without detection at each step in the fee collection process. Consequently, INS managers could not determine the total amount of fees that should have been collected based on the applications processed.
In our judgment, INS has no assurance that substantial losses have not occurred.  The following conditions were found at five of the six POEs and are presented in more detail in this report:
There were no reconciliations between cash collected, cash register tapes, and applications adjudicated.
The cash collected and supporting accounting records were not adequately safeguarded and preserved.
Management oversight throughout the collection and deposit process was inadequate.
Segregation of duties was not adequate.
Liability for shortages could not be reasonably determined due to the existing compendium of inadequate controls.
We found that most of these conditions were identified in a 1995 OIG audit report on cash collections at POEs and had not been corrected.  In response to the two recommendations in the 1995 report relating to improving internal controls, the INS Executive Associate Commissioner for Field Operations assured the OIG that District Directors would be held responsible for maintaining adequate internal controls at the POEs.  Despite this assurance, we found that these recommendations had largely not been implemented.
The Laredo POE was the exception in our audit.  Generally, management controls there were adequate as the Port Director could determine liability for losses and, if necessary, hold staff accountable for cash shortages by requiring that money be restored from personal funds.
We discussed the findings with INS managers from our sampled POEs and several District Office representatives.  They generally agreed with our findings and expressed an interest in correcting their respective deficiencies.  Since the completion of our fieldwork, Port Directors from the Douglas and Laredo POEs notified us of actions they have taken to improve controls at their respective POEs.  Likewise, the El Paso and San Antonio District Offices have initiated corrective actions in an effort to improve controls at the POEs in those Districts.  We believe that INS can improve controls without significant increases in expenditures or staffing.
Our audit objectives, scope and methodology, and background are described in the Introduction section.  The details of our audit results are discussed in the Findings section, page 5.  Recommendations for corrective action are presented in the Conclusions and Recommendations section, page 33.